                         United States Attorney Michael J. Sullivan
                                 District of Massachusetts

FOR IMMEDIATE RELEASE                          CONTACT: CHRISTINA DiIORIO-STERLING
August 10, 2007                                                 PHONE: (617) 748-3356
WWW.USDOJ.GOV/USAO/MA                             E-MAIL: USAMA.MEDIA@USDOJ.GOV


   P.A. LANDERS, INC. AND COMPANY PRINCIPALS SENTENCED FOR
     DEFRAUDING THE COMMONWEALTH ON PAVING PROJECTS

        Boston, MA...A Plymouth road construction company and two of its principals were
sentenced yesterday for conspiring to defraud the Commonwealth of Massachusetts and several
of its municipalities by generating fake and inflated asphalt weight tickets on government-funded
paving projects.

       United States Attorney Michael J. Sullivan, Theodore L. Doherty III, Special Agent in
Charge of the New England Regional Office of the U.S. Department of Transportation, Office of
Inspector General, and Douglas A. Bricker, Special Agent in Charge of the U.S. Internal
Revenue Service, Criminal Investigation Boston Field Office, announced that P.A. LANDERS,
INC., was sentenced to four years’ probation and ordered to pay a fine of $3 million.

        The company’s former President and CEO, PRESTON A. LANDERS, age 56, of
Hanover, Massachusetts, was sentenced to 42 months’ imprisonment, to be followed by 2 years
supervised release and a fine of $150,000. The former Vice President GREGORY R.
KEELAN, age 49, of Pembroke, Massachusetts, was sentenced to 30 months’ imprisonment, to
be followed by 2 years supervised release and a fine of $10,000. P.A. LANDERS, INC.,
KEELAN and LANDERS were also ordered to pay $332, 686 in restitution.

       On May 9, 2007, the three defendants were found guilty by a jury of Conspiring to
Defraud the Commonwealth of Massachusetts and several of its municipalities, and Using the
Mails to Defraud the Commonwealth of Massachusetts and Several of its Municipalities.

        From 1996 through at least March, 2003, the defendants generated fake and inflated
asphalt weight tickets on government-funded paving projects on which P.A. LANDERS, INC.
worked. Shortly after the company built its asphalt production plant in Plymouth in 1995,
LANDERS, President of the company, ordered that a manual override device be installed in the
plant’s computer control room. Additionally, at the direction of LANDERS and KEELAN,
company employees used that override device to generate fake asphalt weight tickets, which did
not correspond to any actual asphalt load, as well as inflated asphalt weight tickets, which
overstated the amount of asphalt contained in an actual load.


       PRESTON A. LANDERS, GREGORY R. KEELAN, and P.A. LANDERS, INC.
have each been suspended by the United States Department of Transportation from participation
in contracts on government-funded public works projects, and further administrative debarment
proceedings are pending.

        The case was prosecuted by the New England Regional Office of the U.S. Department of
Transportation, Office of Inspector General and the U.S. Internal Revenue Service, Criminal
Investigation Boston Field Office, with assistance from the Massachusetts Highway Department.
The U.S. Attorney’s Office would like to especially thank the Massachusetts Highway
Department for its assistance and support during this investigation. The case was prosecuted by
Assistant U.S. Attorney George B. Henderson, II in Sullivan’s Civil Division and Assistant U.S.
Attorney George W. Vien in Sullivan’s Public Corruption and Special Prosecutions Unit.

                                             ###




                                               2
